Nos. 18All 70/18All 71

lfn tbe ~upreme Qeourt of tbe Wniteb ~tatets
MICHIGAN SENATE, ET AL., APPLICANTS

V.
LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.
LEE CHATFIELD, ET AL., APPLICANTS

V.
LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.

PROOF OF SERVICE FOR
MICHIGAN SECRETARY OF STATE'S OPPOSITION TO INTERVENORS'
EMERGENCY APPLICATIONS FOR A STAY
The undersigned certifies that on May 20, 2019, she served the MICHIGAN
SECRETARY OF STATE'S OPPOSITION TO INTERVENORS' EMERGENCY APPLICATIONS FOR A STAY by mailing same in an envelope bearing postage fully
prepaid, plainly addressed as follows and emailing same to the email address provided:
Gary P. Gordon
Attorney for Petitioner Michigan Senate and Senators (lSAl 170)
Dykema Gossett, PLLC
201 Townsend St, Ste 900
Lansing, MI 48933
517-374-9133
ggordon@dykema.com

Joseph H. Yeager, Jr.
Attorney for Respondents League of Women Voters of Michigan, et al.
(18Al 1 70/18Al 170)
Faegre Baker Daniels LLP
300 North Meridian St, Ste 2700
Indianapolis, IN 46204
313-237-1278
J ay.Yeager@FaegreBD.com
Jason Torchinsky
Attorney for Petitioners Lee Chatfield, et al. (18Al 171)
Holtzman Vogel Josefiak Torchinsky, PLLC
45 North Hill Dr, Ste 100
Warrenton, VA 20186
540-341-8808
jtorchinsky@hvit.law

